Washington, D.C. 20530

April 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Francisco Javier Palillero v. United States of America,
S.Ct. No. 20-1240
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 4, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on April 28, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 28, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1240
PALILLERO, FRANCISCO JAVIER
USA

SCOTT M. DAVIDSON
SCOTT M. DAVIDSON, PH.D., ESQ
1011 LOMAS BOULEVARD NW
ALBUQUERQUE, NM 87102
505-255-9084
SCOTT@JUSTAPPEALS.NET
505-213-7212(Fax)

